No. 20A96

In the Supreme Court of the United States
DANVILLE CHRISTIAN ACADEMY, INC., COMMONWEALTH OF KENTUCKY, EX REL.
ATTORNEY GENERAL DANIEL CAMERON,
Applicants,
v.
ANDREW BESHEAR, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF KENTUCKY,
Respondent.
To the Honorable Brett M. Kavanaugh, Associate Justice of the United
States Supreme Court and Circuit Justice for the Sixth Circuit

CERTIFICATE OF SERVICE
I, Eric Rassbach, a member of the Bar of this Court and counsel for the amicus
on the accompanying Motion by The Becket Fund for Religious Liberty, with Attached
Proposed Amicus Curiae Brief in Support of Applicants, for Leave (1) to File the Brief;
and (2) to Do So without Ten Days’ Advance Notice to the Parties, certify that on this
3rd day of December, 2020, I caused a copy of the motion and amicus brief to be served
via next day service and electronically on the following:
Barry Lee Dunn
Counsel of Record
Kentucky Office of the
Attorney General
700 Capitol Avenue
Suite 118
Frankfort, KY 40601
barry.dunn@ky.gov

Amy Denise Cubbage
Counsel of Record
Office of the Governor,
Commonwealth of Kentucky
700 Capitol Avenue
Suite 106
Frankfort, KY 40601
amy.cubbage@ky.gov

Counsel for Applicants

Counsel for Respondent

I further certify that all parties required to be served have been served.

Eric Rassbach

